                                                 -      -- _.- -

                           -LOSEOUT FOR M980200C
    I

                                                                                          I
               On 1 February 1998, an NSF division director1 brought OIG
         an allegation of plagiarism concerning a proposal2 submitted by the                                 I
         subject3. The division director received the allegation from a
    I
         proposal reviewer.4 The reviewer alleged that some passages in the
         proposal were. copied nearly verbatim from a scientific research
         plan5 posted on the Internet.                                                                       I
                                                                                      f
                                                                                      P


    -.         We determined that 11 lines near the beginning of the                  ;
         Introduction are substantially similar to those in the plan, and 17
         lines near the end of the Introduction appear nearly identical to text
         in the Introduction section of the plan. The copied material is
         background material, explaining previous studies in this field. The                  fl             !
         subject did not enclose the identical text in quotation marks, cite
         the plan in the proposal, or list it among the proposal references.
         Aside from these lines, there was no other inadequately attributed
                                                                                      I                      I


                                                                                                             I
         copying from the plan.

               In responding to our request for information, the subject said
         that he was solely responsible for assembling and submitting the
         proposal, and that in the early stages of preparing the proposal he
         had downloaded the Introduction of the plan from the Internet with
         the intent of using it to formulate questions in the proposal. He
         stated that he did not ask for permission to use the text,'enclose it
         in quotation marks, or cite it because he never intended to
         incorporate it into the proposal. He further explained that the




                                                              -
         inclusion of text from the plan was a "grave error," resulting from
         the combination of many fdes and repeated revision of the text. As
         evidence that he did not intend to incorporate text from the plan,
         and that he was unaware that he had in fact incorporated it, the
         subject pointed out that in his cover letter to NSF, his first
         suggested reviewer was the author of the plan; he also suggested as


                               ,                     of the                       1                i         I
I




                                                                                                         I
                                                                                                         i
                                                                                  F                11,
                                                                                                         !
                                                                                                         I
                                   Page 1 of 2
                .   .                         - -   -      --         - .   __            - ---   -- - -               -

                                              ,LOSEOUT FOR M980200t

                        reviewers two other individuals who had contributed to the
                        development of the plan.
                                                                                                   '

                              We informed the subject that his actions were careless and                    i
                        did not conform with NSF expectations for "strict adherence to the
                        rules of proper scholarship and attribution."6 We discussed with
                        him how he could have complied with those rules in this instance.
                        We noted that NSF has made findings of misconduct in science
                        against scientists who have copied more extensive amounts of
                        verbatim text from the work of others, and we urged him to
                        familiarize himself with the standards of proper scholarly
                        attribution. We suggested that the subject resolve this matter by
                        sending the program officer (with a copy to us) a substitute
                        proposal with the copied portions of the plan enclosed in quotation
                        marks and properly cited.                                       r

.   .   .   .

                          The subject sent,a properly corrected proposal to the program
                    officer and a copy to us. Accordingly, this inquiry is closed and no                   :. .   'I
                .   further action will be taken.

                    cc:       Integrity, IG

                                                                                   r                                           I

                                                                                                                               j
                                                                                                                   I           I




                                                                                                                           I
                                                                                                                           I
                                                                                                                           I

                    6    Grant Proposal Guide, NSF 99-2, a t 1.                                                        I   I
                                                                                                                           !
                                                        Page 2 of 2              M98-05

                                                                                                                           I
